U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




        DEPARTMENT OF COMMERCE

                    Department of Commerce’s
             Consolidated Financial Statements
                             Fiscal Year 1997


           Audit Report No. FSD-9753-8-0001/March 1998




                              PUBLIC
                              RELEASE



      Office of Audits, Financial Statements Audit Division
March 31, 1998


MEMORANDUM FOR:               The Honorable William M. Daley
                              Secretary of Commerce



FROM:                         Johnnie E. Frazier
                              Acting Inspector General

SUBJECT:                      Audit of the Department of Commerce’s
                               Fiscal Year 1997 Consolidated Financial Statements
                              Audit Report No. FSD-9753-8-0001

This was the second audit of the Department of Commerce’s consolidated financial statements
under the requirements of the Chief Financial Officers Act of 1990 (CFO Act), as amended by the
Government Management Reform Act of 1994 (GMRA). Attached is the final report on our
audit of the Department’s financial statements as of September 30, 1997.

Our report includes three components:

       !       Report on Financial Statements,

       !       Report on Internal Control Structure, and

       !       Report on Compliance with Laws and Regulations.

The executive summary is presented on pages i-iv. A disclaimer of opinion was issued on the
Department’s fiscal year 1997 consolidated financial statements due to management’s inability to
support certain account balances and the deficiencies noted in the Department’s internal controls.
However, improvement has occurred within the Department, as evidenced by the six bureaus that
received upgraded opinions from the previous year. For example, NOAA received a qualified
opinion on its Statement of Financial Position for fiscal year 1997 as compared to a disclaimer of
opinion received on its overall financial statements in fiscal year 1996.

We make recommendations to address 10 reportable conditions, of which we consider 7 to be
material weaknesses. Our findings and recommendations can be found in the Report on Internal
Control Structure, pages 3-35. The findings and recommendations were reviewed by the
Department’s management during our audit, and we have incorporated their comments where
appropriate. Based on our mutual agreement, we are issuing this report as final.
For the Department as a whole to reach an unqualified opinion in upcoming years, it must resolve
the weaknesses identified in our Report on Internal Control Structure and Report on Compliance
with Laws and Regulations, as well as the findings identified in the individual bureau audits. In
addition, a review of current resources, including the qualifications of financial staff, needs to be
performed in anticipation of the increased reporting requirements for the fiscal year 1998 financial
statements. The upcoming reporting requirements include OMB Bulletin 97-01, Form and
Content of Agency Financial Statements, and the Government Performance and Results Act
(GPRA) of 1993.

Implementation of OMB Bulletin 97-01 poses tremendous challenges to the Department for
various reasons. In particular, this bulletin requires six statements to be prepared, as compared to
the two statements required under OMB Bulletin 94-01. One of these six statements, the
Statement of Net Cost, requires the Department to report costs by suborganizations and
programs, which should be based on the missions and outputs described in the Department’s
strategic and annual plans, its budget structure, and the Statement of Federal Financial
Accounting Standards No. 4, Managerial Cost Accounting Standards. As the federal
government has not previously been required to report information in such a manner for financial
or budgetary purposes, the Department will need to ensure it places the appropriate emphasis on
the implementation of OMB Bulletin 97-01.

We are also concerned with the Department’s efforts to prepare for the increasing requirements of
GPRA. The overview to the consolidated financial statements provides the linkage to GPRA,
which mandates government entities to collect and report information on their performance
against established goals and objectives. However, the Department’s overview does not present
sufficient performance and financial measures to provide a clear description of the Department’s
program and financial results. In addition, the measures included are not presented in a manner
that adequately describes the Department’s successes and challenges. We believe that
management should take action to ensure that the Department compiles and reports financial and
performance data in compliance with the requirements of GPRA, as well as OMB Bulletin 97-01.

Implementation of Statement of Federal Financial Accounting Standards No. 5 and Interpretation
of Federal Financial Accounting Standards No. 2, Accounting for Treasury Judgment Fund
Transactions, required the Department of Commerce and its bureaus, beginning in fiscal year
1997, to report all contingent liabilities associated with their operations. Due to this new
reporting requirement, the Department needed to have implemented a process, beginning October
1, 1996, to accumulate and track the data pertinent to all contingent liabilities. However,
Departmental and bureau management had not sufficiently prepared for implementation of this
standard. Therefore, a significant, coordinated effort among the Office of General Counsel, the
Office of Inspector General, and the Office of Financial Policy and Assistance was required to
overcome the lack of preparedness to address the reporting requirement for fiscal year 1997. This
issue was a major factor contributing to the Department’s inability to meet OMB’s deadline of
March 1, 1998, for the issuance of audited financial statements.




                                               Page 2
In addition to the financial reporting aspects, we are concerned with the vitality of the systems
used throughout the Department. Specifically, we are concerned about the Department’s ability
to become year 2000 compliant, as well as the implementation of the Commerce Administrative
Management System (CAMS). Many of the Department’s program and accounting systems use
two-digit year dates that will become inaccurate after December 31, 1999. Unless this problem is
corrected, there is serious risk that the Department’s mission-critical computer applications will
cease functioning properly. CAMS was initially intended to replace the majority of financial
systems with year 2000 problems. However, it is evident that CAMS will not be fully operational
at any bureau, other than Census, before the year 2000. As a result, most of the bureaus are
moving to repair their affected systems, and are no longer relying on the implementation of
CAMS. Given the short time frame remaining, the Department must focus intensely on its year
2000 program.

Finally, several bureau CFO and key financial management positions have yet to be permanently
filled. We encourage the Department to continue its efforts in filling these positions.

In accordance with generally accepted auditing standards and Government Auditing Standards
issued by the Comptroller General of the United States, the Inspector General reports are dated
March 13, 1998, the date of completion of the audit field work. As required by DAO 213-5,
please provide an audit action plan within 60 days of the date of this memorandum.

Should you need to discuss the contents of these reports, please contact George E. Ross,
Assistant Inspector General for Auditing, at (202) 482-1934, or Lisa A. Casias, Deputy Assistant
Inspector General for Financial Statement Audits, at (703) 603-0301.

We appreciate the cooperation and courtesies extended to us by the Department’s managers and
staff during this audit. We are committed to working with management of the Department and its
bureaus to assist in addressing its financial reporting issues.

Attachments


cc:    W. Scott Gould
       Chief Financial Officer and
        Assistant Secretary for Administration

       Andrew Pincus
       General Counsel




                                             Page 3
To obtain a copy of this financial statements report,
please contact the OIG Publications Unit using any of
the following means:

Mail:        OIG Publications Unit
             Mail Stop H7099-C
             14th Street & Constitution Avenue, N.W.
             Washington, D.C. 20230

E-Mail:      oigreports@doc.gov

Telephone:   202-482-0231

FAX:         202-482-4266


For a complete listing of all OIG publicly released
reports, visit the OIG Internet Web Site.




             http://www.oig.doc.gov
